                                                                                                                  NATIONAL SCIENCE FOUNDATION
                                                                                                                   OFFICE OF INSPECTOR GENERAL
                                                                                                                     OFFICE OF INVESTIGATIONS

                                                                                                          CLOSEOUT MEMORANDUM

11           Case Number: A05080058
                                                                                                                                                                      11      Page 1 of 1



                                    As a result of a proactive investigation into plagiarism irijNSF proposals, we founda proposal
                                    where theco-PI'S! (subject) Current and Pending s ~ p p c $(C&PS)
                                                                                                  t       form was not:complete and
                                    was missingtwo potentially pending proposals2~to     othe1':.;ii6n-~ederal
                                                                                                            Eunding sources, :However,                                                                                                    ..
                                                                                                                                    . .
     1.                             on further,review:we-identifiedseveral mitigatirig:factors!~ncluding            ,: ;:,i!,:L. .. ..; .,,.. .,. :. ;.                              ;! k b * . ,      ,5.:.       ,.:          ,   :. .       '       .   "
                                                                                                                                                            - .
                                                                                           <                                                            1:




         .         .                        .            .            :   :e:::::i~hesub,ectwasthe       director of an.aquati( 'center andwas fiequentlyylikted?'&s:a           cb:.::: : : : :,.I
                                                                                                                                                                    . .. ,. . . ,.:....:$, . .. , :.:::'.
                                                                                                                                                                    :..                                        .     .         $      .
               ,                .
                                                                          ::   ,   P I on:pfepodals despite :not-being directly;involveklin research.
                                                                                   .:                                                                       ,
                                                                                                                                                                                     .:.. ,-...:'.     ..(               :.,..ci.).



                                                                                                                                                                              ?.,I:. -:I* :.: ..
         ..        ,
                            ,           .       .    .   .I;:       -:.!:;; .s; : , The pending proposals were mostly f ~ c u s e d ~ o n ~ ~ s ~ center:operatidn's::
                                                                                                                                                   ~portin~                                           . ..!                                        '


          _- , .                    .           ,,                  . L. LV-.      , through:equipment, support and contractual servic3e~
                                                                                   ;                                                         and supported.little.ifany>:.;;::q:II               . .                                                       ,


                                                                                                                                        . ..        '
                                                                                                                                                                    .. . . . , .i l .
                                                                                                                                       g .


                                                                '          . , .:: research;,       ,
                                                                                                                                       i:
                                                                                                                                                        l ? .
                                                                                                                                                        1:.
                                                                                                                                                                . .
                                                                                                                                                                                       '!.                     :
                                                                                                                                                                                                               ( I . . !
                                                                                                                                                                                                                           <


                                                                                                                                            ,           0         (                                                        ,          .
                                                                                                                                            ,   /




: ; ,1
                                                                                                                                                                                                                           > I

               .,                                           role inthe unlisted p~~ding~~oposals,we..,d~~e~ned~~thatthis'
                       :.:,,.: ~~~au~e:.o&t.~&$ubj.&i:t<~~,negligible                  ,.                        ;;.                                                                                                                                   :
                                                                                                                                                                                                                               ,               .
                        '       . ; matter need:notlbe:.pur4iiedany further.                                     Accordingly, thisjcase:i$closed:.
                                                                                                                                ,r.
                                                                                                                                                  . i::.. '!.:r:
                                                                                                                                                        ,,,-.  i:t,i.            ,::   ::-::..;i:.:y .i::::.:j;.t                   r:,:r:i;:              :
                                                                                                                                       .:!              .. 5..;                  .       .                                 ;I
                                                                                         .,,,. ..
                                                                                                         .                             . i .


                                                                                                                                       ..-
                                                                                                                                         , .. .
                                                                                                                                       !$;
                                                                                                                                                        i
                                                                                                                                                        'e: l
                                                                                                                                                                                                                           . 1,.




    NSF OIG Form 2 (1 1102)
                                    -
